   DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                 Office of Inspector General


                                                                            Washington, D.C. 20201



                                       NOVO.12010


TO: 	           Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services

                              /S/
FROM:           Stuart Wright
                Deputy Inspector General
                  for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: The Use ofPayment Suspensions To Prevent
           Inappropriate Medicare Payments, OEI-OI-09-001S0


This memorandum report presents the findings of our recent work that (1) describes
Medicare payment suspensions implemented by the Centers for Medicare & Medicaid
Services (CMS) in 2007 and 2008 and (2) assesses CMS's process for approving and
implementing Medicare payment suspensions.

CMS may suspend payments to a Medicare provider or supplier (hereinafter referred to
as a provider) under any of three circumstances: (1) fraud or willful misrepresentation,
(2) when an overpayment exists but the amount has not been determined, or (3) when
payments made or to be made may be incorrect. 1 CMS may suspend payments based on
requests from its contractors or from law enforcement.

We analyzed 253 suspensions that eMS imposed in 2007 and 2008. Part B providers
composed 85 percent ofthose suspensions. Overpayments to providers in those years
totaled at least $206 million. eMS extended more than half of payment suspensions,
generally because its contractors needed more time to calculate overpayments or the
Office of Inspector General (OIG) was considering an administrative action against a
provider, such as a civil monetary penalty or permissive exclusion.

The great majority of providers that eMS suspended in 2007 and 2008 exhibited
characteristics that suggest fraud. eMS recommends that providers suspended due to
fraud receive no advance notice; in all but three of the suspensions, no such advance
notice was given. Seventy-four percent of suspended providers showed questionable
billing patterns. Sixty-three percent of suspensions were supported by information from
beneficiaries or from other providers; this information included evidence that the
suspended providers had billed for services that were never received or were medically

142 CFR § 40S.371(a)(l).
Page 2 – Donald M. Berwick, M.D.


unnecessary and had used other providers’ billing numbers to seek payment for items or
services that had not been authorized. Twenty-four percent of suspended providers billed
Medicare before their suspensions despite having vacant physical locations.

We also found that CMS provides some inconsistent guidance on payment suspensions,
particularly in specifying the types of information that its contractors should submit with
a request for a suspension, as well as in describing to contractors and law enforcement the
circumstances in which an extension is permitted.

We conclude that payment suspensions were used in 2007 and 2008 almost exclusively
as a tool to fight fraud. Since the time when we collected data for this evaluation, the
Patient Protection and Affordable Care Act (hereinafter referred to as the Affordable Care
Act) was signed into law. The Affordable Care Act states that a provider’s payments
may be suspended based on a credible allegation of fraud, unless there is good cause not
to suspend such payments. It also states that CMS must consult with OIG in determining
whether a credible allegation of fraud exists. 2 On September 23, 2010, CMS issued
proposed regulations for these provisions. 3 The information provided in this report may
be useful to CMS when it finalizes these regulations. In the guidance that CMS develops
for the new provisions for payment suspensions, CMS could also address the
inconsistencies that this report identifies.

BACKGROUND

Improper Medicare Payments and Payment Suspensions
CMS may suspend payments to any Medicare provider when it possesses reliable
information that the provider was overpaid for previously submitted claims. CMS
imposes suspensions under any of three circumstances: (1) fraud or willful
misrepresentation, (2) when an overpayment exists but the amount has not been
determined, and (3) when payments made or to be made may be incorrect. 4

Payment suspensions are a strong tool for CMS to use to protect the Medicare program
from improper payments. In 2008, CMS highlighted payment suspensions as a means of
fighting fraud, waste, and abuse by home health providers in Miami-Dade County,
Florida. 5

CMS may suspend payments based on requests from its contractors or from law
enforcement. CMS contractors that typically request payment suspensions include
Program Safeguard Contractors and Zone Program Integrity Contractors, both of which

2
   P.L. 111-148, §§ 6402(h)(1) and (2).
3
  75 Fed. Reg. 58204, 58239 (Sept. 23, 2010).
4
  42 CFR § 405.371(a)(1); CMS, Program Integrity Manual (PIM), § 3.9.1.
5
  CMS, CMS Strengthens Efforts to Fight Medicare Waste, Fraud and Abuse. Accessed at
http://www.cms.gov/apps/media/press_releases.asp on May 3, 2010.


OEI-01-09-00180          The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 3 – Donald M. Berwick, M.D.


conduct data analysis and identify potential Medicare fraud on CMS’s behalf. 6 Law
enforcement entities, including OIG and the Department of Justice (DOJ), request
payment suspensions from CMS through these contractors. 7 In addition, the Office of
General Counsel in the Department of Health & Human Services (HHS) reviews requests
for payment suspensions prior to their approval.

The Process for Payment Suspensions
Two documents outline procedures for payment suspensions. For contractors,
Section 3.9 of the PIM details those procedures. For law enforcement, the Joint
Guidance on CMS Administrative Actions and the Impact on Health Care Fraud Cases
(hereinafter referred to as the Joint Guidance) provides information regarding payment
suspensions and law enforcement investigations. Authored by CMS, OIG, and DOJ and
released in July 2009, the Joint Guidance describes the types of administrative sanctions
that CMS may impose, including payment suspensions, and their effect on ongoing
investigations and litigation.

Requesting a payment suspension. The process for requesting a payment suspension is
the same whether a contractor initiates it based on the contractor’s own analysis or at
CMS’s request, or at the behest of law enforcement. 8 The contractor provides CMS with
a draft notification letter (hereinafter referred to as a suspension notice) and a summary of
the reliable information. The suspension notice must include the reason for the
suspension, which “must be specific enough to justify the action being taken and allow
the provider an opportunity to identify the problem.” 9 In addition to that requirement, the
notice must also include 10 other elements:

       that the suspension will be imposed,
       the extent of the suspension (all claims, certain types of claims, 100 percent
        suspension, or partial suspension),
       that the suspension is not appealable,
       that CMS has approved the suspension,
       when the suspension will begin,
       the items and services affected,
       how long the suspension is expected to be in effect,
       the reason for suspending payment,

6
  In 2008, CMS established Zone Program Integrity Contractors, which will consolidate benefit integrity
work for Medicare Parts A and B. Seven of them will replace the Program Safeguard Contractors. As of
October 2010, three are operational.
7
  CMS, PIM, § 3.9.1.1.C.
8
  A memorandum of understanding between OIG and CMS allows OIG to request a payment suspension
based on a declaration signed by an OIG Special Agent. This declaration includes a description of the
fraud and the evidence supporting the request for a payment suspension. The memorandum of
understanding was established in January 2009 and amended in June 2010.
9
  CMS, PIM, § 3.9.1.1.C.


OEI-01-09-00180            The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 4 – Donald M. Berwick, M.D.


        that the provider has the opportunity to submit a rebuttal statement within
         15 days of the suspension notice, and
        where to mail the rebuttal. 10

Payment suspension approval and provider notification. CMS decides whether to
suspend a provider’s payments based on reliable information that it receives from the
contractor. After CMS approves a suspension, it determines whether the provider should
be notified before or after the date of the suspension. If CMS suspends a provider
because of suspected fraud, willful misrepresentation, or harm to the Medicare Trust
Funds, CMS directs the contractor to send the notice to the provider on or after the
effective date of the suspension, but no later than 15 days after this date. 11 For
suspensions imposed for other reasons, CMS instructs the contractor to send the
suspension notice at least 15 calendar days before the suspension takes effect. 12

Opportunity for rebuttal. Payment suspensions may not be appealed to an administrative
law judge within HHS. However, a suspended provider may submit a rebuttal to explain
why CMS should remove the suspension. A provider must submit a rebuttal letter within
15 days of the date of the suspension notice, but the contractor can shorten or extend this
period for cause. 13 CMS directs its contractors to respond within 15 days of receiving a
rebuttal letter with CMS’s decision for continuing or removing the suspension. The
process for responding to rebuttal letters is similar to that for requesting suspensions; the
contractor drafts a response to the rebuttal and forwards it—along with the provider’s
rebuttal letter—to CMS for approval.

Calculating overpayments during a suspension. After suspending payments to a provider,
the contractor calculates the overpayment, which “consists of all claims in a specific time
period determined to have been paid incorrectly.” 14 The contractor selects a statistically
valid random sample of claims, requests medical records for these claims from the
suspended provider, and reviews the records to determine the amount of the
overpayment. 15 If the contractor does not receive records from the provider, then the
contractor determines that 100 percent of the claims were paid in error.

During the suspension, the provider may continue to submit claims. Amounts from valid
claims submitted by the provider during this period are held in suspense. Those funds
must first be applied to reduce the amount of the overpayment and then to reduce any



10
   CMS, PIM, § 3.9.2.2.2.
11
   42 CFR § 405.372(a)(3); CMS, PIM, § 3.9.2.2.
12
   CMS, PIM, § 3.9.2.2.1.
13
   42 CFR § 405.374(b).
14
   CMS, PIM, § 3.9.2.3.1.
15
   CMS, PIM, § 3.6.


OEI-01-09-00180           The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 5 – Donald M. Berwick, M.D.


other debt owed to CMS or HHS. Any remaining funds held in suspense are then
released to the provider. 16

Extension of payment suspensions. Payment suspensions generally last 180 days.
However, based on written requests from contractors or law enforcement, CMS may
extend payment suspensions under certain circumstances (see Table 1).
                    Table 1: CMS’s Provisions for Extending Payment Suspensions
       Entity Requesting an      Time Limit for             Circumstance Under Which CMS May Grant the Entity an
       Extension                 the Extension                              Extension Based on a Written Request

       Contractor, OIG, or            180 days      The entity is unable to complete its examination of the information or
       DOJ                                                        investigation (including calculation of the overpayment).

       DOJ                            180 days            An additional 180-day extension may be granted based on an
                                                    ongoing investigation and the anticipated filing of criminal and/or civil
                                                                                                                   actions.

       OIG                              No limit      The time limits for extensions do not apply if the provider has been
                                                    referred to, and is being considered by, OIG for administrative action
                                                                 (such as permissive exclusion or civil monetary penalty).

     Source: 42 CFR § 405.372(d); CMS, PIM, § 3.9.2.4.



Removal of payment suspensions. After the contractor calculates the overpayment, it
issues a letter to the provider that includes the overpayment amount. The contractor then
refers the overpayment to the Medicare claims processor. The claims processor issues a
letter (called a demand letter) to the provider demanding refund of the overpayment and
maintains the responsibility for collecting the overpayment. 17 Once the claims processor
has issued the demand letter and the suspended payments have been applied to the
overpayment and/or released to the provider, the suspension is removed. 18

The Affordable Care Act and Payment Suspensions
Signed into law on March 23, 2010, the Affordable Care Act established the following
provisions for payment suspensions:
    CMS may suspend payments to a provider pending an investigation of a credible
       allegation of fraud against the provider, unless CMS determines there is good
       cause not to suspend such payments;
    CMS shall consult with OIG in determining whether there is a credible allegation
       of fraud against a provider of services or supplier; and
    CMS shall promulgate regulations to implement the provisions listed above. 19
       (CMS issued the proposed regulations on September 23, 2010. 20 )

16
   42 CFR § 405.372(e).
17
   CMS, PIM, § 3.8.
18
   Joint Guidance, p. 5.
19
   P.L. 111-148 § 6402(h).
20
   75 Fed. Reg. 58204, 58239.


OEI-01-09-00180                     The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 6 – Donald M. Berwick, M.D.


METHODOLOGY

Scope
This evaluation examined payment suspensions for fee-for-service Medicare providers
that CMS imposed in 2007 and 2008 in the 50 States, the District of Columbia, and
Puerto Rico (hereinafter referred to as States). It also examined CMS’s processes for
payment suspensions. This evaluation did not examine CMS’s decisions on individual
payment suspensions or the appropriateness of payment suspensions.

Data Sources and Analysis
Our evaluation relied on four data sources: documents for payment suspensions that
CMS approved in 2007 and 2008, interviews with CMS officials, site visits at three
purposively selected contractors, and a review of CMS regulations and guidance.

To examine the payment suspensions that CMS implemented, we reviewed contractor-
provided documents pertaining to 253 payment suspensions imposed in these 2 years. 21
We identified the types and sources of reliable information that supported payment
suspensions to determine the circumstances in which CMS approved suspensions.

To examine CMS’s processes for approving and implementing payment suspensions, we
used data from our review of payment suspension documents and a review of all relevant
regulations and guidance for payment suspensions. We also relied on information from
interviews with CMS officials and site visits at three contractors; in these interviews and
site visits, we collected information about processes and procedures for implementing
payment suspensions.

Standards
This evaluation was conducted in accordance with the Quality Standards for Inspections
approved by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Payment Suspensions in 2007 and 2008 Were Concentrated in Medicare Part B, and
Most Were Located in Four States
Part B providers composed 85 percent of suspensions in 2007 and 2008. We divided the
Part B providers into two categories: those that supply durable medical equipment,
prosthetics, and other supplies (DMEPOS); and other providers, such as physicians and




21
  According to CMS’s Fraud Investigations Database, the agency imposed 260 suspensions in this 2-year
period. However, contactors were unable to provide us with the files on 7 of these suspensions, leaving us
with 253 suspensions that had information we could use.


OEI-01-09-00180            The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 7 – Donald M. Berwick, M.D.


home health agencies. We examined these two groups separately because of concerns
that OIG has raised about fraud among DMEPOS suppliers. 22 (See Table 2.)

              Table 2: Number of Payment Suspensions by Year and Provider Type
                                                                                     *
              Provider Type                                    2007           2008                      Total


              Part A                                       10 (6%)         28 (32%)                 38 (15%)

              Part B—DMEPOS                              23 (14%)          41 (47%)                 64 (25%)

              Part B—non-DMEPOS                         132 (80%)          19 (22%)                151 (60%)

                Total                                          165              88                       253
         Source: OIG analysis of payment suspension documents, 2010.
         *
             Percentages do not total 100 percent because of rounding.


Seventy-nine percent of providers that CMS suspended in 2007 and 2008 were located in
four States; more than half were located in Medicare Fraud Strike Force areas. CMS
suspended payments to providers located in 23 States, with most of the suspended
providers located in Florida, Puerto Rico, California, and Michigan (see Figure 1; also
see Appendix A for the number of payment suspensions by State).

          Figure 1: Percentage of Providers Suspended in 2007 and 2008 by State



                               Florida
                                35%

                                                                                         Puerto Rico
                                                                                            26%




                               All other                                                   California
                             States (N=19)                                                   13%
                                 21%
                                                                         Michigan
                                                                            5%


       Source: OIG analysis of payment suspension documents, 2010.




22
  See OIG, South Florida Suppliers’ Compliance With Medicare Standards: Results From Unannounced
Visits, OEI-03-07-00150, March 2007; and OIG, Los Angeles County Suppliers’ Compliance With
Medicare Standards: Results From Unannounced Visits, OEI-09-07-00550, February 2008.


OEI-01-09-00180                  The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 8 – Donald M. Berwick, M.D.


Furthermore, 53 percent (135 of 253) of providers with payment suspensions were
located in the seven U.S. Attorney’s Office districts in which a Medicare Fraud Strike
Force currently operates. 23 The Medicare Fraud Strike Force, a joint initiative between
HHS and DOJ that began in March 2007, targets “chronic fraud as well as emerging or
migrating schemes perpetrated by criminals operating as health care providers or
suppliers.” 24

Overpayments totaled at least $206 million. As of August 2009, CMS had removed
182 (72 percent) of the payment suspensions that it approved in 2007 and 2008. The
median overpayment amount that contractors calculated for the removed suspensions was
$1,288,136 (see Table 3), with overpayments ranging from $23,344 to $6,071,470. For
23 of the 182 suspensions that CMS removed, the contractor determined that there was
no overpayment to calculate or recoup.

After the contractor calculates the overpayment, Medicare claims processors are
responsible for collecting it. However, recent OIG work found that claims processors
collected only 7 percent of overpayments that contractors referred to them for collection
in 2007. 25

                Table 3: Overpayments Calculated During Payment Suspensions
                                      by Provider Type*
             Provider Type                  N          Median       Minimum        Maximum                 Total

             Part A                        21     $1,645,026       $166,200      $4,596,538        $43,223,576

             Part B – DMEPOS               57     $1,237,153         $23,344     $5,881,115        $72,779,627

             Part B – non-DMEPOS           65     $1,072,338         $35,204     $6,071,470        $89,918,810

               Overall                    143     $1,228,136         $23,344     $6,071,470      $205,922,014

           Source: OIG analysis of payment suspension documents, 2010.
           * We base this analysis on the documents we received for 143 of the 182 removed suspensions. As of
           August 2009, 71 suspensions had not been removed, so the amount of any overpayment had not yet been
           determined. For 23 suspensions, contractors calculated that no overpayment had been made; for
           16 suspensions, contractors did not provide information on the amount of overpayment.




23
   As of July 2010, the Medicare Strike Force is in operation in the following U.S. Attorney’s Office
districts: Southern District of Florida (Miami), Central District of California (Los Angeles), Eastern
District of Michigan (Detroit), Southern District of Texas (Houston), Middle District of Louisiana (Baton
Rouge), Eastern District of New York (Brooklyn), and Middle District of Florida (Tampa). “Medicare
Fraud Strike Force Expands Operations into Brooklyn, N.Y.; Tampa, Fla.; and Baton Rouge, La.”
Accessed from http://www.stopmedicarefraud.gov/heatsuccess/taskforces.html on July 29, 2010.
24
   DOJ, “Fact Sheet: Medicare Fraud Strike Forces.” Accessed from
http://www.stopmedicarefraud.gov/heatsuccess/general_fact_sheet.pdf on July 29, 2010.
25
   See OIG, Collection Status of Medicare Overpayments Identified by Program Safeguard Contractors,
OEI-03-08-00030, May 2010; and OIG, Medicare Overpayments Identified by Program Safeguard
Contractors, OEI-03-08-00031, May 2010.


OEI-01-09-00180                The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 9 – Donald M. Berwick, M.D.


Implementation of Suspensions Followed the Process Described in the Program
Integrity Manual
Suspension notices generally contained the required elements. Ninety-six percent (240)
of the 250 suspension notices that we received included all required elements that the
PIM specifies.26 The suspension notice—which informs a provider that its payments
have been suspended and provides information about the suspension process—must
include (among other things) the suspension’s start date, its expected duration, and
information on the rebuttal process. Of the 10 notices that lacked required elements,
6 omitted information explaining that the provider has the opportunity to submit a
rebuttal statement within 15 days of notification, and 4 omitted the date that the
suspension began.

Although the PIM contains no requirements for timeframes, CMS approved payment
suspensions in a median of 4 calendar days. CMS approved about one-quarter of
suspensions (46 out of 191) on the same day that contractors requested them (see
Figure 2 for approval timeframes). According to CMS officials with whom we spoke,
they review each request for a payment suspension to assess the extent to which Medicare
funds are at risk, as well as whether a payment suspension is the appropriate
administrative tool to use.

               Figure 2: Number of Calendar Days Between the Date of Contractors’ 

                 Requests for Payment Suspensions and Date of CMS’s Approval* 



                                     0
                                    24%                                                 1
                                                                                       12%


                            61 to 92
                              1%                                                                  2
                                                                                                 8%

                             31 to 60
                               9%



                               15 to 30
                                 9%                                                          3 to 7
                                             8 to 14                                          27%
                                              10%
           Source: OIG analysis of payment suspension documents, 2010.
           * This analysis is based on 191 payment suspensions that were initiated by contractors/law enforcement. We
           excluded the remaining 62 payment suspensions because these were initiated by CMS.




26
     Contractors did not provide suspension notices for 3 of the 253 suspended providers.


OEI-01-09-00180                   The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 10 – Donald M. Berwick, M.D.


Few providers submitted rebuttals. Of the 253 suspended providers, 41 (16 percent)
submitted rebuttals to CMS. Because payment suspensions cannot be appealed, the
rebuttal serves as a provider’s only opportunity to submit information on why CMS
should remove the suspension. Of the 41 providers that submitted rebuttals, CMS
removed suspensions for 3.

CMS extended more than half of payment suspensions. The suspensions that CMS had
removed lasted a median of 267 days. For Part A providers, the median length was
179 days; for Part B providers, it was 341 days. CMS extends suspensions based on
requests from contractors and law enforcement. CMS approved extensions for 145 of the
253 payment suspensions (57 percent). Two-thirds of the extensions (96 out of 145)
were one-time extensions of 180 days. CMS also approved a second 180-day extension
for three suspensions.

In most cases, contractors requested that CMS extend suspensions so that they could
complete their calculations of the overpayments made to the providers. Contractor staff
told us that because of several factors, they might need additional time to calculate
overpayments. These factors include the amount of time that the provider takes to submit
medical records and the complexity of the medical record reviews that contractors
conduct.

CMS extended 46 of 145 (32 percent) suspensions for indefinite time periods. CMS may
extend a suspension indefinitely based on a request from OIG when OIG is considering
an administrative action against a provider, such as a civil monetary penalty or
permissive exclusion. 27

The Great Majority of Providers That CMS Suspended in 2007 and 2008 Exhibited
Characteristics That Suggest Fraud
Although the circumstances for each suspension are unique, the timing of suspension
notices and the reliable information that supported the suspensions demonstrate that CMS
suspended most providers because of suspected fraud.

All but three suspended providers received no advance notice, indicating suspected fraud
or willful misrepresentation. If CMS suspends a provider because of suspected fraud,
willful misrepresentation, or harm to the Medicare Trust Funds, CMS instructs its
contractors to send the notice on or after the effective date of the suspension, but no later
than 15 days after this date. For suspensions imposed for other reasons, CMS instructs its
contractors to give providers at least 15 calendar days of prior notice. 28




27
     42 CFR 405.372(d)(3); CMS, PIM, § 3.9.2.4.
28
     CMS, PIM, § 3.9.2.2.1.


OEI-01-09-00180             The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 11 – Donald M. Berwick, M.D.


Contractors sent 99 percent of notices (243 of 246) to providers on or after the day the
suspension took effect. 29 Contractors sent notices to the remaining three suspended
providers just 1 day prior to the date the suspension took effect.

Seventy-four percent of suspended providers had questionable billing patterns. For
187 out of 253 suspended providers, contractors included analysis of claims data that
showed unusual billing patterns.

The contractors’ analyses showed billing patterns common in instances of suspected
fraud, including aberrantly high amounts of services provided within a short timeframe
and spikes in billing as a result of multiple claims submitted for the same beneficiary.
The contractors’ analyses also showed that some of the suspended providers billed
Medicare using stolen identities. In these instances, suspended providers billed for
services using beneficiary identification numbers that were known to have been
compromised. Other suspended providers aberrantly billed for medical equipment,
submitting claims that listed neurosurgeons, pediatricians, and pathologists as the
ordering physicians. Those specialties do not typically order such equipment.

Sixty-three percent of suspensions were supported by information from beneficiaries or
from other providers that raised questions. For 159 out of 253 suspensions, complaints or
attestations from beneficiaries and/or from other providers contributed reliable
information needed to implement a suspension. They filed their complaints either with
contractors or with law enforcement. The attestations from beneficiaries and providers
resulted from interviews conducted by law enforcement or contractors, as well as from
signed statements collected by these entities. In some instances, the information provided
through complaints and attestations led a contractor to initiate payment suspensions.

Beneficiary complaints and attestations indicated that the suspended providers billed
them for services that they never received or that were medically unnecessary. For
example, some complaints concerned out-of-State providers that had billed the
beneficiaries for services that they never received. The beneficiaries had neither heard of
the providers nor been to the States in which the providers were located. Beneficiaries
also attested that medical equipment suppliers billed them for equipment that they never
received. These beneficiaries indicated that they did not know the supplier or referring
physician listed on the claim. In addition, beneficiaries told contractors or law
enforcement that they received home health services even though they were not
homebound, as Medicare requires.

Likewise, complaints or attestations from providers indicated that their billing numbers
had been used by suspended providers to bill for items or services that they had not
authorized. For example, providers attested that they had never ordered medical

29
   Contractors provided us with 250 suspension notices, of which 4 notices lacked an effective date, leaving
a denominator of 246 notices.


OEI-01-09-00180             The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 12 – Donald M. Berwick, M.D.


equipment from the providers that aberrantly billed, nor had they ever treated the patients
for whom the equipment was ordered. These physicians include anesthesiologists and
neurologists who also indicated that they do not order medical equipment for their
patients. Other physicians made complaints upon discovering that the suspended
providers used their identities to establish new billing numbers in their names.

Fifty-five percent of suspended providers failed to submit medical records. Of the
182 providers in 2007 and 2008 for which suspensions had been removed, 100 providers
failed to submit medical records to the contractor for calculating the overpayment.
According to contractor staff with whom we spoke, failing to submit medical records
during the course of a suspension demonstrates that the provider may have never existed
or may have moved without notifying CMS. Such notification is a requirement to
continue participating in the Medicare program.

Twenty-four percent of suspended providers billed Medicare before their suspensions
despite vacant physical locations. For 61 of the 253 suspensions we analyzed,
contractors, law enforcement, and/or CMS staff found that the provider’s office did not
appear to be in business prior to the suspension. They uncovered vacant offices and
locked doors during posted business hours, as well as eviction notices posted on a
provider’s office door. In one instance, they went to the provider’s address and found a
storage facility, rather than a medical office. In addition, the site visits included
interviews with landlords and tenants in neighboring businesses who attested that they
had not observed any business activity at the provider’s location.

CMS Provides Some Inconsistent Guidance on Payment Suspensions
Two CMS-approved documents that provide guidance on the process remain incomplete
or inconsistent with requirements for payment suspensions. These documents include the
PIM, which provides guidance to contractors; and the Joint Guidance, which provides
information to law enforcement about CMS’s administrative actions and their effect on
health care fraud cases.

The Program Integrity Manual fails to reflect CMS’s current guidance to contractors for
payment suspensions. In 2009, CMS revised the PIM’s section on payment suspensions,
calling for contractors requesting suspension to submit “other supportive information”
along with the suspension notice at the time of the suspension request. 30 However, the
revised PIM does not specify the type of supportive information needed. CMS officials
told us that when they suspend a provider, the information that they review includes
whether the provider’s billing number was revoked, the amount of pending Medicare
payments, and whether the provider’s claims are being reviewed prior to payment. 31 If
the contractor omits this information from the suspension request, it can result in a delay
in CMS’s approval of the suspension.
30
     Ibid., § 3.9.2.2.2.
31
     This is known as a prepayment review. See CMS, PIM, § 3.4.


OEI-01-09-00180             The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 13 – Donald M. Berwick, M.D.


Furthermore, the model suspension notice contained in the PIM has not been updated
since November 2000. 32 Most notably, the model notice describes an outdated
suspension approval process. Since October 2006, the authority to approve payment
suspensions has rested with the CMS central office, but the model notice describes the
previous process, under which CMS regional offices approved suspensions. 33 Although
the text in the 2009 update to the PIM refers to the current arrangement, the notice
itself—to which contractors presumably refer when preparing their requests—continues
to reflect the former regional arrangement. 34

The model notice also lacks the current legal language that CMS requires all suspension
notices to contain. That language includes the disposition of a provider’s payments after
the removal of the suspension. 35 Because the model notice omits this required
information, contractor staff with whom we spoke told us that they rely on their own
templates or refer to the most recent CMS-approved suspension notice to ensure that new
suspension notices include the appropriate information. CMS’s lack of a standardized
model suspension notice that includes all required information could potentially cause
delays in the suspension process.

CMS officials acknowledged that the PIM includes out-of-date guidance and told us that
they were working with a contractor to thoroughly revise it. CMS officials told us that
they had conducted in-person training at each contractor’s location in the past year to
review the suspension process with contractor staff.

CMS’s guidance on extending payment suspensions is contradictory. In certain
situations, CMS may extend payment suspensions indefinitely. According to Medicare
regulations, the suspension time limits do not apply when OIG is considering
administrative action, such as a civil monetary penalty or permissive exclusion. 36 Of the
253 suspensions we examined, CMS approved indefinite extensions for 46 (18 percent).

However, the PIM and the Joint Guidance—CMS’s guidance documents for its
contractors and for law enforcement, respectively—differ from one another in describing
when a payment suspension may be extended. The PIM states that CMS may grant an
additional 180-day extension at the written request of DOJ, but the Joint Guidance states
that CMS cannot grant DOJ an additional extension. In addition, the PIM states that the

32
   CMS, PIM, Exhibit 16—Model Suspension of Payment Letters, Rev. 3, November 22, 2000.
33
   CMS memorandum, “Re-Designation of the Payment Suspension Authority and Process,” September 6,
2006.
34
   CMS, PIM, ch. 3, Transmittal 282, January 8, 2009.
35
   “In discussing the effect of payment suspension, we require the following language regarding the
payment suspension in all notices: ‘When the payment suspension has been removed, any money withheld
as a result of this action shall first be applied to reduce or eliminate the determined overpayment and then
to reduce any obligation to CMS or HHS. (See 42 CFR 405.372(e).).’” CMS presentation for Strike Force
law enforcement, “Medicare Payment Suspensions: Myths and Facts,” October 28, 2009.
36
   42 CFR § 405.372 (d)(3).


OEI-01-09-00180             The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 14 – Donald M. Berwick, M.D.


time limits for payment suspension do not apply if OIG is considering administrative
sanctions. In contrast, the Joint Guidance indicates that “the payment suspension
regulation does not explicitly establish a limit on the number of extensions, but it does
not permit indefinite suspensions.” 37

CONCLUSION

In 2007 and 2008, CMS used payment suspensions almost exclusively as a tool to fight
fraud. Since the time when we collected data for this evaluation, the Affordable Care Act
was signed into law. This Act states that payments may be suspended to a provider
pending an investigation of a credible allegation of fraud, unless there is good cause not
to suspend such payments. It also states that CMS must consult with OIG in determining
whether a credible allegation of fraud exists. 38 On September 23, 2010, CMS issued
proposed regulations for these provisions. 39 The information provided in this report may
be useful to CMS when it finalizes these regulations. In the guidance that CMS develops
for the new provisions for payment suspensions, CMS could also address the
inconsistencies that this report identifies.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-01-09-00180 in all correspondence.




37
   CMS, PIM, § 3.9.2.4; Joint Guidance, p. 4.
38
    P.L. 111-148 §§ 6402(h)(1) and (2).
39
   75 Fed. Reg. 58204, 58239 (September 23, 2010).


OEI-01-09-00180           The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
Page 15 – Donald M. Berwick, M.D.


APPENDIX A

Number of Payment Suspensions by State in 2007 and 2008


                                        Number of Providers                       Percentage of
           State                         Suspended in 2007                 Providers Suspended
                                                  and 2008                    in 2007 and 2008*
           Arizona                                               8                        3.2%
           Arkansas                                              1                        0.4%
           California                                           33                       13.0%
           Florida                                              88                       34.8%
           Idaho                                                 2                        0.8%
           Illinois                                              3                        1.2%
           Louisiana                                             5                        2.0%
           Massachusetts                                         3                        1.2%
           Michigan                                             12                        4.7%
           Mississippi                                           1                        0.4%
           Missouri                                              2                        0.8%
           Nebraska                                              1                        0.4%
           Nevada                                                1                        0.4%
           New Hampshire                                         1                        0.4%
           New York                                              1                        0.4%
           Ohio                                                  4                        1.6%
           Oklahoma                                              1                        0.4%
           Oregon                                                3                        1.2%
           Puerto Rico                                          66                       26.1%
           Tennessee                                             5                        2.0%
           Texas                                                 5                        2.0%
           Washington                                            5                        2.0%
           Wisconsin                                             2                        0.8%
                Total                                         253                         100%
           Source: Office of Inspector General analysis of payment suspension documents, 2010.
           *
               Percentages do not total 100 percent because of rounding.




OEI-01-09-00180             The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments
